fan

C@OCKLE

* E-Mail Address:
Le ga 1 Bri efs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No, 21-351
COURTNEY WILD,
Petitioner,
Vv.

UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF FLORIDA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the AMICUS CURIAE BRIEF
OF LEGAL MOMENTUM IN SUPPORT OF PETITIONER in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 5992 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of October, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths,

GEWERAL HOTARY- fen meses. | of Nebraska &v hb,
fen meses. | ¢ debra ‘

My Comm. Exp. Soptamber 8, 2023
Notary Public Affiant 41504
